Report No. D-2010-036            January 22, 2010




 Controls Over Navy Military Payroll Disbursed in
   Support of Operations in Southwest Asia at
       San Diego-Area Disbursing Centers
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ADSN                          Accounting and Disbursing Station Number
CNIC                          Commander, Navy Installations Command
CZ                            Combat Zone
CZTE                          Combat Zone Tax Exclusion
DFAS                          Defense Finance and Accounting Service
DJMS                          Defense Joint Military Pay System
FMR                           Financial Management Regulation
FSA                           Family Separation Allowance
GSU                           Geographically Separated Unit
HDP                           Hardship Duty Pay
HFP/IDP                       Hostile Fire Pay/Imminent Danger Pay
NPPSC                         Navy Pay and Personnel Support Center
SSN                           Social Security Number
SWA                           Southwest Asia
                                     INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704



                                                                                    January 22, 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                  CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                  SERVICE
               COMMANDER, NAVY lNST ALLATIONS COMMAND
               NAVAL INSPECTOR GENERAL

SUBJECT: Controls Over Navy Military Payroll Disbursed in Support of Operations in Southwest
         Asia at San Diego-Area Disbursing Centers
         (Report No. D-2010-036)

We are providing this report fo r your information and use. We performed the audit in response to
a request from the Conunander, Navy Installations Conunand. We considered management
comments on a draft of the report in preparing the fina l report.

The Assistant Secretary of the Navy (Manpower and Reserve Affairs), responding on behalf of the
Commander, Navy Installations Command, comments and Defense Finance and Accounting
Service comments conformed to the requirements of DOD Directive 7650.3; therefore, we do not
require any additional comments.

We appreciate the c01ll1esies extended to the staff. Please direct questions to me at (703) 60 1-
5868 (DSN 329-5868).



                                             f~~a. /JJ~
                                              Patricia A. Marsh, CPA
                                              Assistant Inspector General
                                              Defense Business Operations
Report No. D-2010-036 (Project No. D2009-D000FC-0165.000)                January 22, 2010


               Results in Brief: Controls Over Navy Military
               Payroll Disbursed in Support of Operations
               in Southwest Asia at San Diego-Area
               Disbursing Centers
What We Did                                             prorate HFP/IDP based on the member’s date of
                                                        separation or date of death. DFAS also did not
During calendar year 2008, the Navy disbursed           implement procedures for revised policy
about $136 million in Hostile Fire Pay/                 eliminating the proration of HFP/IDP. As a
Imminent Danger Pay (HFP/IDP), Hardship                 result, 768 former Navy members did not
Duty Pay, and Family Separation Allowance               receive approximately $64,000 of earned
entitlements to support operations in Southwest         HFP/IDP payments since 2001. Until
Asia. Our objective was to determine whether            procedures are implemented to ensure proper
Navy military payroll in support of operations in       payment of HFP/IDP, warfighters who separate
Southwest Asia was processed in accordance              while serving in a CZ will not receive all
with established laws and regulations.                  HFP/IDP payments to which they are entitled.
Specifically, we determined whether the San
Diego-area disbursing centers and the Defense           The Commander, Navy Installations Command
Finance and Accounting Service (DFAS)                   and DFAS internal controls were ineffective.
efficiently obtained and maintained adequate            We identified internal control weaknesses in
support for combat zone (CZ) entitlements.              processing military payroll.
Therefore, we reviewed the CZ entitlements
processed for a population of 15,922 military
members.                                                What We Recommend
                                                        We recommend that the Commander, Navy
What We Found                                           Installations Command:
                                                         establish procedures to identify
San Diego-area disbursing center personnel                  geographically separated units responsible
were not always able to provide supporting                  for processing entitlements and maintaining
documentation for CZ entitlements. They                     supporting documentation, and
provided complete support for a statistically            establish an electronic storage capability for
projected 18,227 CZ entitlements, of which a                supporting documentation.
projected 1,824 were inaccurate. However, they
provided incomplete support for a projected
27,622 CZ entitlements. This occurred because           We recommend that the Director, DFAS:
personnel were not able to identify the                  pay the balance of prorated HFP/IDP owed
geographically separated units that processed             to separated members and families of
CZ entitlements under their Accounting and                deceased members, as appropriate, and
Disbursing Station Numbers to obtain the                 establish policies and procedures to ensure
support. In addition, the disbursing centers did          the proper payment of HFP/IDP upon a
not have efficient and effective procedures in            member’s separation or death.
place to ensure that supporting documentation
was adequately stored and retained. The lack of         Management Comments and
proper supporting documentation adversely               Our Response
affects the Navy’s ability to detect fraud or
improper payments.                                      The Assistant Secretary of the Navy (Manpower
                                                        and Reserve Affairs), responding on behalf of
In addition, DFAS did not process HFP/IDP in            the Commander, Navy Installations Command,
accordance with established laws and                    and the Director, DFAS Cleveland, agreed with
regulations. This occurred because the Defense          the recommendations. Management comments
Joint Military Pay System is programmed to              were responsive to the recommendations.

                                                    i
Report No. D-2010-036 (Project No. D2009-D000FC-0165.000)       January 22, 2010

Recommendations Table

Management                      Recommendations             No Additional Comments
                                Requiring Comment           Required
Director, Defense Finance and                               B.1, B.2
Accounting Service
Commander, Navy Installations                               A.1, A.2
Command




                                          ii
Table of Contents

Introduction                                                                1

      Objectives                                                            1
      Background                                                            1
      Review of Internal Controls                                           3

Finding A. Navy Disbursing Center Processing of Combat Zone Entitlements    4

      Recommendations, Management Comments, and Our Response                8

Finding B. Defense Finance and Accounting Service Processing of Combat Zone
Entitlements                                                                10

      Recommendations, Management Comments, and Our Response               11

Appendices

      A. Scope and Methodology                                             13
             Prior Coverage                                                15
      B. Supporting Documentation Provided by Disbursing Center            16
      C. Statistical Sampling                                              17

Management Comments

      Department of the Navy                                               20
      Defense Finance and Accounting Service                               22
Introduction
Objectives
The Commander, Navy Installations Command, requested that we conduct this audit.
Our objective was to determine whether the Navy military payroll in support of the
operations in Southwest Asia (SWA) was processed in accordance with established laws
and regulations. Specifically, we determined whether the San Diego-area disbursing
centers and the Defense Finance and Accounting Service (DFAS) efficiently obtained
and maintained adequate supporting documentation for combat zone (CZ) entitlements
related to SWA deployments. See Appendix A for a discussion of the scope and
methodology.

Background
The Navy provides most of the nation’s worldwide rotational military presence and an
increasing portion of the required support for ground units in Operations Enduring
Freedom and Iraqi Freedom. In FY 2008, the Navy employed approximately
332,000 active duty and 68,000 reserve personnel. During 2008, the Navy deployed
approximately 104,000 members to support operations in SWA.

Defense Finance and Accounting Service
The Secretary of Defense created DFAS to standardize, consolidate, and improve
accounting and financial functions throughout DOD. The DFAS mission is to direct,
approve, and perform finance and accounting functions for DOD. DFAS Cleveland is the
center for Navy pay operations, delivering pay and entitlements to Navy members.

Disbursing Centers
The Commander, Navy Installations Command (CNIC) is responsible for providing
technical guidance to activities supporting personnel and pay management areas, which
includes policy revisions for entitlement programs. The Navy Pay and Personnel Support
Center (NPPSC), which is under the technical control of CNIC, provides pay and
personnel support services to military personnel and their families through Personnel
Support Detachments. NPPSC is responsible for overseeing the day-to-day operations
and providing guidance to the Personnel Support Detachments, which include
San Diego-area disbursing centers. Disbursing centers maintain pay accounts
and personnel records for active duty Navy personnel, including those assigned to
joint and unified commands, ships, aviation squadrons, mobile units, and staffs within
a prescribed geographic area. A unique four-digit Accounting and Disbursing Station
Number (ADSN) identifies each disbursing center.

Other Processing Activities
Pay specialists at geographically separated units (GSU) assist disbursing centers in areas
where disbursing centers are not physically located. Like disbursing centers, GSUs
provide pay and personnel support services. GSUs include Expeditionary Combat



                                             1
Readiness Centers located in-theater or other activities. A GSU is not assigned its own
ADSN; therefore, GSU pay specialists process transactions under a disbursing center’s
ADSN.

Entitlement Processing
The Transaction Online Processing System is an online database that enables pay
specialists to securely transmit supporting documentation to the designated disbursing
center through the Internet. Upon receipt of the supporting documentation or
notification, the disbursing center or GSU pay specialists use the Navy Standard
Integrated Personnel System, or use the Defense Military Pay Office system, to process
pay data. The Navy Standard Integrated Personnel System is used for pay and personnel
functions, whereas the Defense Military Pay Office system is used only for certain pay
functions. Both the Navy Standard Integrated Personnel System and the Defense
Military Pay Office system interface with the Defense Joint Military Pay System (DJMS)
to provide pay and personnel data to DFAS. DFAS processes the data to generate and
distribute payments to military members.

Combat Zone Entitlements
Military members are eligible for specific entitlements while serving in a CZ, which may
include Hostile Fire Pay/Imminent Danger Pay (HFP/IDP), Combat Zone Tax Exclusion
(CZTE), Hardship Duty Pay (HDP), and Family Separation Allowance (FSA).

        A member is entitled to HFP/IDP for any month in which the member is on
         official duty in a designated HFP/IDP area. The HFP/IDP entitlement is
         payable at a monthly rate of $225 without being prorated.

        The CZTE entitlement allows military members to exclude all or a portion of
         their pay from tax liabilities while serving in designated combat areas.

        The HDP entitlement is payable to members for deployed duty of more than
         30 days in locations specified by the Secretary of Defense. If a member
         receives HFP/IDP, the maximum HDP that may be paid is $100 per month or
         prorated at $3.33 per day.

        Generally, the FSA entitlement is payable to military members with dependents
         assigned away from their permanent duty station. The FSA entitlement is paid
         at the rate of $250 per month or prorated at $8.33 per day.

During 2008, the Navy disbursed approximately $136 million in HFP/IDP, HDP, and
FSA entitlements in support of operations in SWA. DOD does not track or report the
CZTE amount.




                                            2
Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for CNIC and DFAS. CNIC did not establish procedures to identify the
GSUs responsible for processing the entitlements and maintaining the supporting
documentation. Implementing recommendations in Finding A will improve the
disbursing centers’ processing of military payroll. In addition, DFAS did not have
policies and procedures to monitor the payment of HFP/IDP upon a member’s separation
or death to assure that qualifying members’ entitlements are fully paid. Implementing the
recommendations in Finding B will improve DFAS’ processing of military payroll. We
will provide a copy of the final report to the senior officials responsible for internal
controls in CNIC and DFAS.




                                            3
Finding A. Navy Disbursing Center
Processing of Combat Zone Entitlements
San Diego-area disbursing center personnel were not always able to provide supporting
documentation for CZ entitlements. Specifically, disbursing center personnel provided
complete support for a statistically projected 18,227 CZ entitlements, of which a
projected 1,824 were inaccurate. However, they provided incomplete support for a
projected 27,622 CZ entitlements. San Diego-area disbursing center personnel did not
always provide documentation to substantiate CZ entitlements because they were not able
to identify the GSU that processed CZ entitlements under their ADSN to obtain the
support. In addition, San Diego-area disbursing centers did not have efficient and
effective procedures in place to ensure that the supporting documentation was adequately
stored and retained. As a result, the lack of proper supporting documentation adversely
affects the Navy’s ability to detect fraud or improper payments.

Criteria for Supporting Documentation
Office of Management and Budget Circular No. A-123, “Management’s Responsibility
for Internal Control,” December 21, 2004, states that management is responsible for
establishing, implementing, and maintaining internal controls to achieve the objectives of
effective and efficient operations and compliance with applicable laws and regulations.
Management must clearly demonstrate its commitment to competence in the workplace
by ensuring that personnel maintain the proper knowledge and skills to perform their
assigned duties and receive necessary training.

DOD 7000.14R, “DOD Financial Management Regulation” (FMR), volume 5,
chapter 21, “Disbursing Office Records,” September 2007, requires that original
disbursing office records and associated papers be retained as Government property.
Adequate controls over records storage must be in place to ensure that access to any
paper documents and electronic images is limited to authorized personnel, and only for
official purposes. The requirement applies to both paper and electronic records
maintained as original supporting documentation. In addition, transactions need to be
supported by documentation that is readily available for examination and review.
Management should also properly manage and maintain this documentation.

In addition, DOD FMR, volume 7A, chapter 10, “Special Pay-Duty Subject to Hostile
Fire or Imminent Danger,” May 2009, requires that the appropriate commander certify
that a member has met the conditions for the HFP/IDP entitlement each month, except
when the member is under orders on official duty in one of the IDP areas identified in
this chapter. 1 The certification should include the name and social security number
(SSN) of the member entitled to HFP/IDP, a short description of the incident, and when
and where it occurred.


1
  A review of the DOD FMR in effect when Navy members were originally receiving CZ entitlements
indicated no differences from the current citations that would affect the results of the review.


                                                  4
Providing Supporting Documentation
Personnel at the six San Diego-area disbursing centers were not always able to provide
supporting documentation for CZ entitlements. 2 This occurred because they were not
able to identify the GSU that processed CZ entitlements under their ADSN to obtain the
support. Navy pay systems can enable GSU pay specialists to process CZ entitlements
under any ADSN. Only one of six disbursing centers could readily identify the GSU that
processed the entitlements under that disbursing center’s assigned-ADSN. The inability
to determine the GSU that processed the entitlement and the location of supporting
documentation used to process the entitlement adversely affects the Navy’s ability to
detect potential fraudulent and improper payments. The Navy also could not substantiate
members’ receipt of proper CZ entitlements during SWA deployments. Establishing
procedures to identify the GSUs that process entitlements under the disbursing centers’
ADSN would enable pay specialists to verify that members receive proper entitlements.

In addition, San Diego-area disbursing centers did not have efficient and effective
standard operating procedures in place to ensure that the supporting documentation was
adequately stored and retained. San Diego-area disbursing centers generally received
documentation in an electronic format either by e-mail or through the Transaction Online
Processing System. This method allows the disbursing centers to process the transactions
in a more timely manner. Currently, the Transaction Online Processing System stores
supporting documentation for approximately 30 days. Therefore, disbursing center
personnel printed the documents and stored the hard copies on-site. Because of limited
storage space at the disbursing centers, several activities stored documentation in
unsecured locations. For example, one activity stored supporting documentation in a
base warehouse, which contractors also used for supply storage. This allowed contractors
access to documentation containing personally identifiable information. Representatives
agreed that the warehouse was not a secure location for the documentation; however, they
told us that there was not a secure location on-site. The Navy has identified that the
protection of personally identifiable information for its members is imperative for overall
operational military readiness. However, unsecured storage could lead to theft and
fraudulent use of personally identifiable information. Representatives stated that
electronic storage would improve controls over access to personally identifiable
information and reduce costs associated with printing and storing hard-copy
documentation. In addition, an electronic storage capability would help ensure that
supporting documentation is properly maintained and readily available.

Complete Support
San Diego-area disbursing center personnel provided complete supporting documentation
for a projected 18,227 3 CZ entitlements. Specifically, they provided complete support
for a projected 6,633 HFP/IDP entitlements, 6,633 CZTE entitlements, 2,100 HDP



2
 See Appendix B for a summary of supporting documentation provided by each disbursing center.
3
 This number is based on a statistically derived projection and will not sum to the individual numbers
below because of rounding differences. See Appendix C for projected results.


                                                     5
entitlements, and 2,861 FSA entitlements. 4 We considered a CZ entitlement completely
supported when the disbursing center personnel provided adequate supporting
documentation to start and stop the CZ entitlement. For example, we accepted signed
Navy memoranda from the commanding officer that indicated when specific entitlements
should start or stop as evidence of complete supporting documentation. If the
memorandum addressed multiple members, the commanding officer attached a roster of
the members eligible to receive specific entitlements. The roster included names, SSNs,
deployment periods, and deployment locations.

The table shows the projected number of completely supported CZ entitlements that we
identified as accurately or inaccurately processed. It also includes the projected number
of CZ entitlements for which we could not determine the accuracy.

                      Projected Accuracy of CZ Entitlements Processing

     Entitlement          Accurate           Inaccurate           Unable to   Total
                                                                  Determine
    HFP/IDP                 5,199                 584                 850      6,633
    CZTE                    5,150                 633                 850      6,633
    HDP                     1,264                 213                 623      2,100
    FSA                     2,092                 394                 375      2,861
     Total                 13,705               1,824               2,698     18,227

We determined that pay specialists accurately processed a projected 13,705 CZ
entitlements under San Diego-area disbursing center ADSNs. We could not determine
the accuracy for a projected 2,698 CZ entitlements because the entitlements were
ongoing or processed in part under an ADSN outside of our scope. We also identified
that a projected 1,824 CZ entitlements were inaccurate because they were not started or
stopped in a timely manner. This occurred in most cases because the commanding
officer did not prepare supporting documentation for the disbursing center in a timely
manner. In other cases, the disbursing center personnel did not process the entitlements
in a timely manner. When disbursing center personnel stop an entitlement too late, the
member becomes indebted to the Government. For example, overpayment of CZ
entitlements for 3 months after the end of a deployment resulted in a debt of
approximately $2,000. A pay specialist identified the error during the month the member
separated; the overpayment was recouped through a Separation Pay deduction. This
reduction in income may have resulted in financial hardship for the member and the
member’s family.




4
    Not all members receiving HFP/IDP and CZTE are entitled to HDP and FSA.


                                                   6
Incomplete Support
San Diego-area disbursing center personnel did not provide complete supporting
documentation for a projected 27,622 5 CZ entitlements. Therefore, the Navy could not
substantiate a projected 27,622 CZ entitlements received by 15,922 military members for
SWA deployments. Specifically, San Diego-area disbursing center personnel provided
partial support for a projected 11,909 CZ entitlements. In addition, they provided no
support for a projected 15,712 CZ entitlements.

San Diego-area disbursing center personnel provided partial supporting documentation
for a projected 4,442 HFP/IDP entitlements, 4,442 CZTE entitlements, 816 HDP
entitlements, and 2,209 FSA entitlements. We considered a CZ entitlement partially
supported when disbursing center personnel did not provide adequate supporting
documentation for both the start and stop of a CZ entitlement. During certain instances,
one disbursing center started an entitlement while another one stopped it. If both
disbursing centers did not provide complete support for their respective transactions, the
entitlement was classified as partially supported. Partial supporting documentation
impairs pay specialists’ ability to verify the accuracy of members’ entitlements, which
could result in potential financial hardship for members and their families. For example,
one member was not entitled to FSA; however, the member received approximately
$3,500 for this entitlement. In addition, this member’s HFP/IDP, CZTE, and HDP
entitlements were not stopped in a timely manner and were overpaid by approximately
$700. After a pay specialist identified the error, the member incurred a debt of
approximately $4,200. The member and the disbursing center established a pay schedule
to repay the debt. These payments reduce the member’s monthly income until the debt is
repaid, which could result in financial hardship for the member and the member’s family.

San Diego-area disbursing center personnel also provided no supporting documentation
for a projected 4,846 HFP/IDP entitlements, 4,846 CZTE entitlements, 2,786 HDP
entitlements, and 3,234 FSA entitlements. We considered a CZ entitlement to be
unsupported when disbursing center personnel did not provide any supporting
documentation. For example, disbursing center personnel did not provide support for the
start of a member’s CZ entitlements. However, the disbursing center personnel started
the CZ entitlements when the member was in training and not eligible for the
entitlements. When a pay specialist identified the errors, the member had incurred debts
of approximately $675 for the HDP/IDP entitlement and $1250 for the FSA entitlement.
These amounts were later recouped over 2 months. In addition, the member paid back
taxes on approximately $8,100 of untaxed earnings. This reduction in income may have
resulted in financial hardship for the member and the member’s family.

Representatives from several disbursing centers provided deployment rosters as the
support used to start or stop CZ entitlements. We accepted the roster as support only
when the location and date of the member’s deployment corresponded with the applicable


5
 This number is a statistically derived projection and will not sum to the individual numbers below because
of rounding differences. See Appendix C for projected results.


                                                    7
entitlements. Personnel also accepted other unsigned or incomplete documents, such as
FSA forms, that did not identify the country of deployment or the dates of entitlement.
The lack of full supporting documentation prevents the detection of fraudulent,
inaccurate, or untimely receipt of entitlements.

The lack of proper supporting documentation adversely affects the Navy’s ability to
detect fraud or improper payments. The lack of procedures to efficiently and effectively
store and retain supporting documentation creates the potential for inaccurate payments.
DFAS Cleveland personnel identified that erroneous CZ entitlement payments processed
under San Diego-area ADSNs during 2008 resulted in Navy members being
approximately $270,000 in debt for HFP/IDP, HDP, and FSA entitlements combined.
This resulted in a reduction of Navy members’ monthly income to repay the debt, which
could result in financial hardship for the member and the member’s family.

Recommendations, Management Comments, and Our
Response
A. We recommend that the Commander, Navy Installations Command:

      1. Establish procedures to identify the geographically separated units
responsible for processing the entitlements and maintaining the supporting
documentation.

Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Comments
The Assistant Secretary of the Navy (Manpower and Reserve Affairs), responding on
behalf of the Commander, Navy Installations Command, agreed with the
recommendation. The Commander, Navy Installations Command and Navy Pay and
Personnel Support Center are coordinating with the Navy Standard Integrated Personnel
System Project Management Office to develop the ability to readily identify transactions
processed by geographically separated units. The Navy Pay and Personnel Support
Center is also modifying a current Instruction to direct in-theatre geographically
separated unit personnel to transfer supporting documentation for pay and personnel
transactions to a central repository for consolidation and retention. The process will
serve as an interim solution until the Department of the Navy fully implements electronic
data retention.

     2. Establish an electronic storage capability for the supporting
documentation to ensure it is properly maintained and readily available.

Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Comments
The Assistant Secretary of the Navy (Manpower and Reserve Affairs), responding on
behalf of the Commander, Navy Installations Command, agreed with the
recommendation. The Commander, Navy Installations Command, is working with the
Office of the Secretary of the Navy (Financial Management and Comptroller), Navy


                                            8
Standard Integrated Personnel System Project Management Office, Defense Finance and
Accounting Service Cleveland, Navy Personnel Command Millington, and the National
Archive and Records Administration to implement electronic data retention.

Our Response
The Navy comments are responsive and meet the intent of our recommendations. No
further comments are required.




                                         9
Finding B. Defense Finance and Accounting
Service Processing of Combat Zone
Entitlements
DFAS did not process HFP/IDP entitlements in accordance with established laws and
regulations. Specifically, DJMS prorated the HFP/IDP entitlement for Navy members
who separated 6 or died during the same month of serving in a CZ. This occurred because
DJMS is programmed to calculate a member’s HFP/IDP entitlement based on the
member’s date of separation or date of death instead of paying the full monthly amount.
In addition, DFAS did not implement procedures for revised policy eliminating the
proration of HFP/IDP. As a result, 768 former Navy members did not receive
approximately $64,000 of earned HFP/IDP payments since 2001. Until procedures are
implemented to ensure proper payment of HFP/IDP, warfighters who separate while
serving in a CZ will not receive all payments of HFP/IDP to which they are entitled.

Criteria for Hostile Fire Pay/Imminent Danger Pay
Section 310, title 37, United States Code (37 U.S.C. § 310 [2008]), “Special Pay: Duty
Subject to Hostile Fire or Imminent Danger,” establishes a Navy member’s eligibility and
entitlement pay for duties subject to HFP/IDP. DOD FMR volume 7a, chapter 10,
paragraph 100102, “Special Pay-Duty Subject to Hostile Fire or Imminent Danger,”
February 2006, implements 37 U.S.C. § 310 (2008) and requires that effective October 1,
2002, HFP/IDP is payable at a monthly rate of $225. Before October 1, 2002, HFP/IDP
was payable at a monthly rate of $150. 7 HFP/IDP is payable in addition to all other pays
or allowances. Additionally, it is payable in the full amount without being prorated or
reduced, for each month, during any part of which a member qualifies. Active and
Reserve Component members, who qualify at any time during a month, should receive
the full amount of HFP/IDP regardless of the actual number of days served on active or
inactive duty during that month.

Proration of Combat Zone Entitlements
DFAS did not process CZ entitlements in accordance with established laws and
regulations. According to 37 U.S.C. § 310 (2008) and the DOD FMR, a member that
separates or dies during the same month of serving in a CZ should receive the
$225 HFP/IDP entitlement for the entire month. On December 22, 1998, the DFAS
Director of Finance issued a memorandum to change procedures implementing revised
policy to eliminate the proration of HFP/IDP. However, DJMS continued to prorate the
HFP/IDP entitlement for Navy members. This occurred because DJMS is programmed
to calculate a member’s HFP/IDP entitlement based on the member’s date of separation
or date of death instead of paying the full monthly amount. In addition, DFAS did not
implement procedures for the revised policy. For example, one deceased member
received $150 of HFP/IDP in one month, resulting in an underpayment of $75. DFAS


6
    Military separation refers to the release or discharge of a member from active duty.
7
    The increase in the monthly rate was the only change from the previous guidance affecting HFP/IDP.


                                                     10
should pay the portions of prorated HFP/IDP owed to separated members and families of
deceased members. In addition, establishing policies and procedures would ensure the
proper payment of HFP/IDP in the future.

DFAS Cleveland personnel identified that 672 separated and 96 deceased Navy members
did not receive approximately $51,800 and $12,200, respectively, of earned HFP/IDP
entitlement payments since 2001. Until DFAS implements procedures to ensure proper
payment of HFP/IDP, warfighters who separate while serving in a CZ will not receive all
payments of HFP/IDP to which they are entitled. Although the impact of the pay errors
is not significant (approximately $64,000), the 768 former Navy members who earned
HFP/IDP are entitled by law to payment in full. In addition, the warfighters currently
serving in CZs should be assured that they will receive all payments to which they are
entitled.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Director, Defense Finance and Accounting Service:

      1. Pay the balance of the prorated Hostile Fire Pay/Imminent Danger Pay
owed to separated members and families of the deceased members, as appropriate.

Director, Defense Finance and Accounting Service Cleveland,
Comments
The Director, Defense Finance and Accounting Service Cleveland, agreed with the
recommendations. The Defense Finance and Accounting Service, Navy Military Pay
Operations, Cleveland, will research current address information for separated members
or beneficiaries of the affected population. Navy Military Pay Operations, Cleveland,
will forward letters to the member or beneficiary notifying them of the entitlement and
provide 60 days to respond before the case is considered closed.

       2. Establish policies and procedures to ensure the proper payment of Hostile
Fire Pay/Imminent Danger Pay upon a member’s separation or death.

Director, Defense Finance and Accounting Service Cleveland,
Comments
The Director, Defense Finance and Accounting Service Cleveland, agreed with the
recommendation. The Defense Finance and Accounting Service, Navy Military Pay
Operations, Cleveland, established a procedure to ensure the proper payment of Hostile
Fire Pay/Imminent Danger Pay upon a member’s separation or death. Navy Military Pay
Operations, Cleveland, distributed the procedures to all Defense Finance and Accounting
Service Cleveland Military Pay Technicians.




                                           11
Our Response
The Director, Defense Finance and Accounting Service Cleveland, comments are
responsive and meet the intent of our recommendations. No further comments are
required.




                                         12
Appendix A. Scope and Methodology
We conducted this performance audit from March 2009 to October 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To evaluate the controls over Navy military payroll, we reviewed the processing of pay
transactions and the storage and retention of supporting documentation for CZ
entitlements. The Navy and DFAS processed these CZ entitlements, in part or
completely, during 2008 for military members deployed to an active CZ. DFAS provided
a universe of 175,586 HFP/IDP and CZTE transactions processed in 2008. We extracted
the CZ entitlements processed under six San Diego-area disbursing centers for
15,996 military members. The total value of these members’ HFP/IDP, HDP, and FSA
entitlements was $13.8 million for 2008. We randomly selected a sample of 300 military
members for review at the San Diego-area disbursing centers and DFAS. Of these
300 military members, we identified 2 that were not within the scope of our review
because their deployments were not in support of operations in SWA. We analyzed the
remaining 298 military members’ pay data to determine whether San Diego-area
disbursing center and DFAS personnel maintained supporting documentation to
substantiate the HFP/IDP, HDP, CZTE, and FSA entitlements processed under the
San Diego-area ADSNs. The 15,922 military members included in our projections
differs from the 15,996 military members processed under the six San Diego-area
disbursing centers because the 2 military members that were removed from our sample
were projected to our San Diego population. Therefore, a projected 74 of 15,996 military
members would not have been within the scope of our review. See Appendix C for
statistical sampling information.

To accomplish the audit objective:

         We contacted the Office of the Under Secretary of Defense (Comptroller)/Chief
          Financial Officer to determine its involvement in the Navy military pay process.

         We met with DFAS representatives to obtain the universe of military members
          receiving CZ entitlements processed during 2008 while deployed in support of
          operations in SWA. We obtained and reviewed Leave and Earnings Statements,
          Master Military Pay Accounts, * DJMS queries, and supporting documentation
          for military members who received CZ entitlements. We interviewed



*
  The Master Military Pay Account contains current and historical data pertaining to a member’s pay,
including all leave and pay activity for active duty members. The individual accounts contain current
entitlements, deductions, status information, and 11-month history.


                                                    13
        responsible officials about DFAS procedures related to processing HFP/IDP
        entitlements. We evaluated the documentation and procedures to determine
        whether it complied with established laws and regulations.

       We met with Navy representatives to obtain supporting documentation for
        military members who received CZ entitlements. In addition, we interviewed
        responsible officials about the disbursing center’s procedures related to the
        processing of CZ entitlements and the retention of related supporting
        documentation. We evaluated the documentation and procedures to determine
        whether they complied with established laws and regulations.

       We compared supporting documentation to pay data to determine whether the
        San Diego-area disbursing center and DFAS personnel provided adequate
        support for the CZ entitlements. We evaluated supported entitlements to
        determine whether personnel accurately processed the entitlements.

Use of Computer-Processed Data
The Navy uses the Navy Standard Integrated Personnel System and Defense Military Pay
Office system to process pay transactions. The pay data from these systems feed into
DJMS. To assess the reliability of the data in these systems, we compared DJMS data to
commanding officer memoranda, deployment rosters, official e-mails, stamped and
signed travel orders, approved travel vouchers, completed FSA substantiation forms, and
emergency dependent forms to verify deployment location, deployment timeframe, and
CZ entitlement accuracy. We also determined the data reliability by validating the SSNs
in our population through the Defense Manpower Data Center. This assessment
indicated that the data were sufficiently reliable for the purpose of our review.

Use of Technical Assistance
Operations Research Analysts from the DOD Office of Inspector General Quantitative
Methods and Analysis Division assisted with project sample selection and validity of
SSNs. The DOD Office of Inspector General Data Mining Branch coordinated with the
Defense Manpower Data Center to determine deceased members for the SSNs in our San
Diego audit population.




                                          14
Prior Coverage
During the last 5 years, DOD IG and Naval Audit Service have issued two reports
discussing Navy military payroll special pays. Unrestricted DOD IG reports can be
accessed at http://www.dodig.mil/audit/reports. Naval Audit Service reports are not
available over the Internet.

DOD IG
DOD IG Report No. D-2009-079, "Controls Over the Department of the Navy Military
Payroll Disbursed in Support of the Global War on Terror," May 7, 2009

Navy
Naval Audit Service Report N2008-0044, "Validity of Selected Special Pays at Personnel
Support Detachments Afloat," August 15, 2008




                                           15
Appendix B. Supporting Documentation
Provided by Disbursing Center
The table displays the number of military members receiving CZ entitlements that we
reviewed at each San Diego-area disbursing center. The table also identifies the
complete, partial, and no supporting documentation provided by each San Diego-area
disbursing center for each member reviewed.

               Supporting Documentation Provided by Disbursing Center

    Disbursing         Military                Received Supporting Documentation
      Center          Members
                      Reviewed*           Complete                  Partial               None
    5902                   53                9                          6                   38
    5903                   50                0                          3                   47
    5904                   30                7                          8                   15
    5905                   57               31                        17                     9
    5908                   48               10                        20                    18
    5930                   92               30                        51                    11
      Total               330               87                       105                   138

*
 The numbers identify the results of our review of entitlements processed under each disbursing center’s
ADSN, which included entitlements processed by disbursing centers or GSUs. The total members
reviewed above do not match the total sample of 300 because CZ entitlements for multiple members within
the sample were processed by more than one disbursing center.




                                                  16
Appendix C. Statistical Sampling
Population
The population consisted of 15,996 military members receiving CZ entitlements
processed under six San Diego-area disbursing centers during calendar year 2008.

Measures
For the payments sampled, the Quantitative Methods and Analysis Division used an
attribute measure to determine whether the Navy maintained adequate support for
payments related to SWA deployments.

Parameters
The Quantitative Methods and Analysis Division used a 95-percent confidence interval.

Sample Plan
The Quantitative Methods and Analysis Division used a stratified attribute sample design.
The Quantitative Methods and Analysis Division analysts stratified the population into
seven strata: six disbursing centers and a stratum for entitlements processed by multiple
ADSNs. After the population was stratified, the analysts used simple random sampling
to select a sample of 300 military members to test at the San Diego-area disbursing
centers.

Analysis and Interpretation
Of the 300 military members selected in the sample, we identified 2 that were not within
the scope of our review because their deployments were not in support of operations in
SWA. These items projected to 74 military members, which reduced our population to
15,922. We analyzed the remaining 298 military members to determine whether San
Diego-area disbursing center personnel maintained supporting documentation to
substantiate the HFP/IDP, CZTE, HDP, and FSA entitlements processed under their
ADSN. At the 95-percent confidence level, we projected the items over the estimated
population of 15,922 military members. See the tables on the following pages for the
statistical projections.




                                           17
                                     Table 1. Complete Support

        Entitlement                Lower Bound               Point Estimate               Upper Bound
    HFP/IDP                           5,497                       6,633                      7,769
    CTZE                                  5,497                     6,633                       7,769
    HDP                                   1,458                     2,100                       2,743
    FSA                                   1,940                     2,860                       3,781
     Total                              16,266 1                   18,227 2                   20,1871

                                    Table 2. Incomplete Support

        Entitlement                Lower Bound               Point Estimate               Upper Bound
    HFP/IDP                           8,154                       9,289                     10,424
    CTZE                                 8,154                      9,289                     10,424
    HDP                                  2,852                      3,602                       4,353
    FSA                                  4,358                      5,443                       6,527
     Total                              25,5451                    27,6222                     29,7001

                                      Table 3. Total Population

       Entitlement                 Lower Bound               Point Estimate               Upper Bound
HFP/IDP                                15,698                      15,922                     16,145
CTZE                                   15,698                      15,922                     16,145
HDP                                      4,878                      5,702                       6,526
FSA                                      7,132                      8,303                       9,474
                                                 1                          2
    Total                               44,383                     45,849                      47,3151




1
  The lower and upper bounds for the projections are statistically derived calculations that will not sum to
the total.
2
  The point estimates may not sum to the total in the tables or correspond to the projections in the body of
the report because of rounding differences.



                                                     18
                                   Table 4. Complete – Accurate

        Entitlement                Lower Bound                Point Estimate              Upper Bound
    HFP/IDP                           4,097                        5,199                     6,300
    CTZE                                  4,052                     5,150                       6,247
    HDP                                     699                     1,264                       1,829
    FSA                                   1,228                     2,092                       2,956
                                                     1                        2
     Total                              11,839                     13,705                     15,5711

                                  Table 5. Complete – Inaccurate

        Entitlement                Lower Bound                Point Estimate              Upper Bound
    HFP/IDP                             76                          584                      1,092
    CTZE                                  114                         633                      1,152
    HDP                                    (89)                       213                         515
    FSA                                     18                        394                         769
     Total                                9521                     1,8242                      2,6951

                     Table 6. Complete – Unable to Determine Accuracy

        Entitlement                Lower Bound                Point Estimate              Upper Bound
    HFP/IDP                            318                          850                      1,383
    CTZE                                   318                        850                      1,383
    HDP                                    185                        623                      1,061
    FSA                                       3                       375                         746
                                                 1                        2
     Total                              1,751                      2,698                       3,6451




1
  The lower and upper bounds for the projections are statistically derived calculations that will not sum to
the total.
2
  The point estimates may not sum to the total in the tables or correspond to the projections in the body of
the report because of rounding differences.


                                                         19
Department of the Navy Comments




                  Click to add JPEG file




                                 20
Click to add JPEG file




               21
Defense Finance and Accounting Service Comments




                  Click to add JPEG file




                                 22
Click to add JPEG file




               23
Click to add JPEG file




               24
